Audit Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services
Grants to the Town of Manchester, Connecticut 
Police Department
GR-70-01-006
July 17, 2001
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Manchester, Connecticut Police Department.  The purpose of the grants is to enhance community policing.  Manchester was awarded a total of $1,493,443 to hire 12 new police officers and redeploy the equivalent of 18.4 existing full-time officers from administrative duties to community policing.

	We reviewed Manchester's compliance with eight essential grant conditions.  We found Manchester's budgeting practices, hiring of officers, reimbursement requests for the AHEAD/UHP and MORE 98 grants, and retention efforts to be acceptable.  However, we found weaknesses in other areas and in reimbursement requests for the MORE 95 grant, as identified below.  As a result, we question $506,779 and recommend an additional $86,664 be put to better use. 1

The local match requirement was not fully met for the MORE 95 grant. 

	For the MORE 95 grant, Manchester received $76,489 in excess reimbursement.  This amount represents reimbursement received over the grant approved federal share limit. 

	For the MORE 95 grant, Manchester received $42,225 in reimbursement for expenditures that were unallowable because the expenditures were for equipment purchases in excess of the grant approved quantity.  

	For the MORE 95 grant, Manchester could not substantiate that the 16.4 positions for which it was reimbursed had been redeployed to community policing.  Manchester hired civilian personnel and purchased and fully implemented computer equipment to allow it to redeploy existing officer positions from administrative duties to community policing.  Manchester also had a redeployment tracking plan, however, Manchester did not track actual redeployment. 

	For the MORE 98 grant, as with the MORE 95 grant, Manchester could not substantiate that the two positions for which it was reimbursed had been redeployed to community policing. 

	Manchester did not enhance community policing by the number of officers funded by the AHEAD/UHP grants.

	Manchester did not submit four of its grant monitoring reports and 18 reports were submitted late.

These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.





Footnote

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all of our findings are dollar-related.  See Appendix III for a breakout of our dollar-related findings and definitions of questioned costs and funds to better use.